MEMORANDUM

Date:

To:            Mary F. Santonastasso, Director
               Division of Institution and Award Support and Interim
               Director of the Division of Grants and Agreements

From:          Deborah H. Cureton
               Associate Inspector General for Audit

Subject:       Audit Report No. OIG 06-1-007
               Detroit City School District

Attached is the final report prepared by Cotton & Company, an independent public
accounting firm, on the audit of NSF Award No. ESR-9908234 awarded to the Detroit
City School District (DCSD). The audit covered NSF-funded costs claimed from
September 1, 1999 to June 30, 2004 consisting of $10.9 million of NSF direct funded
costs and $27.1 million of cost sharing.

Overall, we questioned approximately $1.4 million of the $10.9 million in direct costs
claimed to NSF. Specifically, $1.2 million of unallowable and unbudgeted salaries and
wages and related fringe benefit costs were charged to the NSF award for nine teachers
who were conducting routine math and science courses during the regular school day, the
costs of which should have been allocated to DCSD’s general education expenses and not
to its NSF award. DCSD also claimed a total of $178,053 of unrelated program costs,
including costs for subcontracts, materials and supplies, participant support, and travel to
award ESR-9908234 that should have been charged to another NSF award (ESR-
9453665). Finally, we questioned $10,000 of stipends paid to undergraduate students
participating in internships at Detroit Community Centers because DCSDS was unable to
explain how these costs supported the NSF award.

DCSD also had a number of material control deficiencies. In general, DCSD’s systems
of internal controls were not adequate to properly administer, account for, and monitor its
NSF award in compliance with NSF and federal requirements in the areas of payroll, cost
sharing, indirect costs, participant support, and allocability of costs between separate NSF
awards. Specifically, DCSD lacked the required employee certifications and personnel
activity reports to support any of the $2.8 million of salary and fringe benefit costs it
claimed on its NSF award through June 2004. The auditors performed extensive
alternative procedures to assess the reasonableness and propriety of the claimed labor
costs and to satisfy their concerns that these costs were related to the NSF award. The
auditors were able to verify that $1.6 million of these costs were valid and benefited
NSF’s award. However, as mentioned above, the remaining $1.2 million of these costs
were questioned.

DCSD also lacked an efficient system to properly identify and account for the cost
sharing it attributed to its NSF award, raising questions as to the reliability and integrity
of the $27,094,087 that it claimed on its certified cost sharing reports to NSF. While
DCSD’s automated accounting system did capture all cost sharing expenses, it did not
specifically identify these expenses as benefiting NSF’s awards. DCSD also lacked
written policies for reporting of cost share. As such, DCSD was unable to readily or
easily determine the status of its cost sharing contributions on its NSF award or ensure
the same contributions were not also claimed on other federal awards. DCSD also
claimed $20.2 million as cost share (75% of total cost share claimed) for general math
and science textbook expenses, which are typically not allowed by NSF as cost share.
The approved budget for this award did not specify any costs for textbooks. Instead,
DCSD’s approved $20.9 million cost share budget primarily consisted of costs associated
with salary and wages (20%), participant support (40%), computer technology (12%) and
materials and supplies (14%). However, we did not question the use of such textbooks as
cost share because NSF program officers indicated to us that they would accept the
textbooks as cost share.

Moreover, DCSD did not have adequate policies and procedures for determining
allowable indirect costs for its NSF grant. The award provided for a predetermined, fixed
2.29-percent indirect cost rate. However, two amounts totaling $25,466 were charged to
NSF’s award as indirect costs during the first two years of the award. Rather than
calculating its indirect costs utilizing its official accounting records, DCSD instead
claimed as indirect costs the difference between its expenditures as of June 30, 2003 and
the award’s authorized funding amount.

Finally, DCSD’s accounting system did not separately track participant support costs
incurred under the award in accordance with NSF requirements. Therefore, DCSD was
unable to identify whether it had improperly spent participant support funds for other
purposes without NSF approval. DCSD also used participant support costs of $10,000 to
pay stipends for university undergraduate students participating in internships at Detroit
community centers. These costs were not in the NSF budget approved for this project or
related to the USP award.
Accordingly, we recommend that your offices direct DCSD to continue to ensure that
employees maintain semi-annual certifications and monthly personnel activity reports to
support salaries and wages charged to NSF awards. Additionally, we recommend that
your offices direct DCSD to establish a system to identify, account for, monitor, and
report cost-sharing expenses; explain the variances in the cost share proposed and the
cost share incurred; and, verify that the amount of cost share incurred actually benefited
the NSF program. We further recommend that your office require DCSD to develop and
implement written policies and procedures that: 1) provide a financial management
system and control processes that effectively administer and monitor participant support
costs, indirect costs, and allocation of expenditures for each NSF award; 2) require
supervisory review and approvals of expenditures and other actions under NSF awards as
costs incurred; 3) ensure reasonableness, allocability, and allowability of all costs
claimed in accordance with NSF and federal requirements as costs incurred; and, 4)
ensure that DCSD personnel are adequately trained and understand how to comply with
federal and NSF award requirements.

DCSD concurred that it did not have: 1) employee certifications to support salaries and
fringe benefits charged to the NSF award; 2) an appropriate system to identify, account
for, monitor, and report cost-sharing expenses; and 3) procedures in place to prevent
unallowable indirect costs from being charged to the NSF program or to properly
segregate expenditures between multiple NSF awards. DCSD reported that it
implemented several actions to address these findings. However, DCSD disagreed with
the finding that labor costs for nine teachers conducting routine teaching assignments was
unallowable, and that the participant support costs used to support the former Detroit
Public Schools students in the Michigan State University program to tutor students in
community-based centers was not related to the USP award. However, DCSD did not
address the variances in the cost share proposed and the cost share incurred; nor did they
verify that the amount of cost share incurred actually benefited the NSF program.

We consider the issues in the audit report to be significant. Accordingly, to help ensure
the findings are resolved within six months of issuance of the audit report, please
coordinate with our office during the resolution period to develop a mutually agreeable
resolution of the audit recommendations. The findings should not be closed nor should
additional awards be made to DCSD until NSF determines that all recommendations have
been adequately addressed and proposed corrective actions have been satisfactorily
implemented. In addition, NSF should recognize DCSD as a high risk grantee under its
Risk Management Program and take immediate steps to ensure that DCSD institutes
internal controls that ensure that all costs are claimed in accordance with federal and NSF
requirements.

We are providing a copy of this memorandum to the Acting Division Director of
Elementary and Secondary Informal Education. The responsibility for audit resolution
rests with the Division of Institution and Award Support, Cost Analysis and Audit
Resolution Branch (CAAR). Accordingly, we ask that no action be taken concerning the
report’s findings without first consulting CAAR at 703-292-8244.
Evaluation of Cotton & Company’s Audit Performance

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed Cotton & Company’s approach and planning of the audit;

      •   Evaluated the qualifications and independence of the auditors;

      •   Monitored the progress of the audit at key points;

      •   Coordinated periodic meetings with Cotton & Company and NSF officials, as
          necessary, to discuss audit progress, findings, and recommendations;

      •   Reviewed the audit report, prepared by Cotton & Company to ensure compliance
          with Government Auditing Standards and the NSF Audit Guide; and

      •   Coordinated issuance of the audit report.

Cotton & Company is responsible for the attached auditor’s report on the Detroit City
School District and the conclusions expressed in the report. We do not express any
opinion on the Schedules of Award Costs, internal control, or conclusions on compliance
with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit.
If you have any questions regarding this report, please contact me at 703-292-4985 or
Jannifer Jenkins at 703-292-4996.



Attachment

cc:       Barbara Olds, Acting Division Director, EHR/ESIE
        DETROIT CITY SCHOOL DISTRICT
   3011 WEST GRAND BOULEVARD, 14TH FLOOR
          DETROIT, MICHIGAN 48202

NATIONAL SCIENCE FOUNDATION AWARD NUMBER
               ESR-9908234

             FINANCIAL AUDIT OF
          FINANCIAL SCHEDULES AND
INDEPENDENT AUDITORS’ REPORTS FOR THE PERIOD
      SEPTEMBER 1, 1999, TO JUNE 30, 2004




                                  This audit was performed by:

                                       Cotton & Company LLP
                                     635 Slaters Lane, 4th Floor
                                     Alexandria, Virginia 22314
           XXXXXXXXXXXX
          XXXXXXXXXXXXXX




XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
X
                                                         Table of Contents

                                                                                                                                                 Page

Executive Summary:
  Background .....................................................................................................................................   1
  Audit Objectives, Scope, and Methodology ....................................................................................                      1
  Summary of Audit Results ...............................................................................................................           2
  Exit Conference................................................................................................................................    5

Findings and Recommendations:
  Independent Auditors’ Report on Financial Schedule ....................................................................                             6
  Independent Auditors’ Report on Compliance with Laws and Regulations and
       Internal Control over Financial Reporting ..............................................................................                      8

Financial Schedules:
  Schedule A Schedule of Award Costs ..........................................................................................                      20
  Schedule B Schedule of Questioned Costs ...................................................................................                        21
  Schedule C Schedule of Cost Sharing...........................................................................................                     24
  Schedule D Summary Schedule of Award Audited and Audit Results.........................................                                            25
  Notes to the Financial Schedules .....................................................................................................             27

Appendix A: Awardee’s Comments to Report
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to the Detroit City School
District (DCSD) under Cooperative Agreement No. ESR-9908234 for the period September 1,
1999, to June 30, 2004. DCSD, as a federal awardee, is required to follow cost principles
specified in Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments, and federal administrative requirements contained in
OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governments.
In addition, as an NSF awardee, DCSD is required to follow provisions for financial
management systems and cost sharing in OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations.

DCSD oversees all 268 public schools in the City of Detroit. These schools provide services to
nearly 160,000 K-12 students. DCSD received more than $235 million in federal funds in Fiscal
Year (FY) 2003.

NSF awarded Cooperative Agreement No. ESR-9908234 to DCSD on September 1, 1999, for
$11.5 million and included a $20.9 million cost-share requirement. The agreement expired on
August 31, 2004. DCSD claimed $10.9 million of NSF funding and $27.1 million in cost
sharing. The agreement was awarded under NSF Program Announcement No. 99-52, Urban
Systemic Program in Science, Mathematics and Technology Education (USP). USP is a K-12
based program that promotes systemic reform of science and mathematics education for all
students. USP also includes programmatic components that seek to foster partnerships between
urban school districts and 2- and 4-year colleges and universities and embed research on
educational practice and learning. The specific purpose of the DCSD USP award was to
stimulate dramatic improvements in (a) teaching and learning, enabling significantly more
students to pursue careers in science, mathematics, and technology, (b) establishing and
expanding a unified system of coalitions that link students, teachers, families, and community
members in DCSD with the city’s vast and diverse resources, and (c) establishing an
infrastructure that aligns DCSD’s efforts to sustain the highest quality of student learning.

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit engagement were to:

1.     Determine if DCSD's Schedule of Award Costs presents fairly, in all material respects,
       costs claimed on the Federal Cash Transaction Reports (FCTR), and if costs claimed,
       including cost sharing, are in conformity with NSF award terms and conditions.

2.     Identify matters concerning instances of noncompliance with laws, regulations, and
       provisions of the award agreement pertaining to NSF awards and weaknesses in DCSD's

       internal control over financial reporting that could have a direct and material effect on the
       Schedule of Award Costs and DCSD’s ability to properly administer, account for, and
       monitor its NSF awards.
                                                 1
We audited costs claimed under Cooperative Agreement No. ESR-9908234 for the period
September 1, 1999, to June 30, 2004. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; Government Auditing Standards
(2003 Revision), issued by the Comptroller General of the United States; and the National
Science Foundation Audit Guide (September 1996), as applicable. These standards and the
National Science Foundation Audit Guide require that we plan and perform the audit to obtain
reasonable assurance about whether amounts claimed to NSF as presented in the Schedule of
Award Costs (Schedule A) are free of material misstatements. An audit includes examining, on
a test basis, evidence supporting amounts and disclosures in the Schedule of Award Costs. An
audit also includes assessing the accounting principles used and the significant estimates made
by DCSD, as well as evaluating the overall financial schedule presentation. We believe that our
audit provides a reasonable basis for our opinion.

SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF as well
as cost sharing provided by DCSD on Cooperative Agreement No. ESR-9980234. These costs
and the costs questioned by our audit are shown in the Schedule of Award Costs (Schedule A)
and are summarized as follows:

                                                      Claimed            Questioned
      Funding Source                Budget             Costs               Costs
      NSF Funding                $11,500,000        $10,906,223          $1,422,089
      Cost Sharing                20,979,622         27,094,087                   0
      Total Project              $32,479,622        $38,000,310          $1,422,089

Except for the $1,422,089 in questioned salary, wages, fringe benefit, participant support, and
other unrelated program costs, described below, we determined that the costs claimed by DCSD
appear fairly stated and are allowable, allocable, and reasonable under Federal and NSF
requirements.

We questioned $1.2 million of the total $10.9 million claimed (11 percent) of NSF funded costs
because DCSD claimed unallowable and unbudgeted salaries and fringe benefit costs for nine
teachers who were conducting routine math and science courses during the regular school day.
DCSD should have allocated these costs to its general education expenses and not to the NSF
award. DCSD also claimed another $178,000 of unrelated program costs, including costs for
subcontracts, materials and supplies, participant support and travel, which should have been
charged to another NSF award. Finally, we questioned $10,000 of stipends paid to
undergraduate students participating in internships at Detroit Community Centers because
DCSDS was unable to explain how these costs supported the NSF award.

DCSD also had a number of control deficiencies which we consider to be material. In general,
DCSD’s systems of internal controls were not adequate to properly administer, account for, and
                                               2
monitor its NSF award in compliance with NSF and federal requirements in the areas of payroll,
cost sharing, indirect costs, participant support, and allocability of costs between separate NSF
awards. Specifically;

       •      DCSD lacked employee certifications and personnel activity reports to support
              any of the $2.8 million of salary and fringe benefit costs it claimed through June
              2004. DCSD did not realize that NSF awards were subject to timesheet
              requirements under OMB Circular A-87 until the final year of the award. Only
              through extensive alternative procedures were we able to verify that $1.6 million
              of these costs were valid and benefited NSF’s award. However, the remaining
              $1.2 of labor costs for unallowable teacher salary and fringe benefit costs are
              questioned.

       •      DCSD lacked an efficient system to properly identify and account for the cost
              sharing it attributed to the NSF award, raising questions as to the reliability and
              integrity of the $27,094,087 that it claimed on its certified cost sharing reports to
              NSF. While DCSD’s automated accounting system did capture all cost sharing
              expenses, it did not specifically identify these expenses as benefiting NSF’s
              awards. Instead, DCSD relied on a separate manual system to track the cost
              sharing amounts it used to support its NSF award. However, the manual system
              was not reconciled to the automated system in a timely manner. DCSD also
              lacked written policies for reporting of cost share. As such, DCSD was unable to
              readily or easily determine the status of its cost sharing contributions on its NSF
              award or ensure the same contributions were not also claimed on other federal
              awards. DCSD also utilized $24.9 million in materials and supplies as cost share,
              of which $20.2 million was spent on general math and science textbook expenses,
              expenses typically not allowed by NSF as cost share. Moreover, DCSD’s
              proposed cost share budget designated only $3 million for materials and supplies,
              with the remainder of the budget to include salaries, wages, fringe benefits,
              equipment, participant support costs and computer technology expenses. In
              addition, the NSF program announcement specifically indicated that “the use of
              school buildings, equipment, and materials during normal hours of operation is
              not considered cost sharing.” Thus, it appears the use of general math and science
              textbooks as cost share did not benefit the purpose of the NSF award. However,
              we did not question the use of such textbooks as cost share because NSF program
              officers indicated to us that they would accept the textbooks as cost share if they
              were used to teach students math and science.



       •      DCSD did not have adequate policies and procedures for determining allowable
              indirect costs for its NSF grant. The award provided for a predetermined, fixed
              2.29-percent indirect cost rate. This rate should have been applied to total direct
              costs less subaward costs and participant support costs. However, two
              unexplained amounts totaling $25,466 were charged to NSF’s award as indirect
              costs during the first two years of the award. Rather than calculating its indirect
                                                3
              costs utilizing its official accounting records, DCSD instead claimed as indirect
              costs the difference between its expenditures as of June 30, 2003 and the award’s
              authorized funding amount.

       •      DCSD’s accounting system did not separately track participant support costs
              incurred under the award in accordance with NSF requirements. Therefore,
              DCSD was unable to identify whether it had improperly spent participant support
              funds for other purposes, without NSF approval. To support $5.2 million of
              participant support costs (47% of total costs claimed), DCSD had to manually
              review invoices in its financial records and prepare summary schedules, in order
              to accommodate the audit. DCSD also used participant support costs of $10,000
              to pay stipends for university undergraduate students participating in internships
              at Detroit community centers. These costs were not in the NSF budget approved
              for this project or related to the USP award.

Accordingly, we recommend that the NSF Directors of the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) direct DCSD to ensure that
employees maintain semi-annual certifications and monthly personnel activity reports to support
salaries and wages charged to its NSF awards and direct DCSD to develop and implement
written policies and procedures that ensure the reasonableness, allocability, and allowability of
costs charged to its NSF grants. We also recommend that DCSD be directed to establish an
efficient system to identify, account for, monitor, and report cost sharing expenses and that NSF
require DCSD to explain the variances in the cost share proposed and the cost share incurred and
explain how the cost share incurred actually benefited the NSF program. We also recommend
that DCSD formulate and implement policies and procedures that effectively administer and
monitor participant support costs, indirect costs, and the allocation of expenses for each NSF
award.

The awardee responded to the draft report on March 20, 2006. In its response, the awardee stated
that it concurred with the findings that it did not have 1) employee certifications to support
salaries and fringe benefits charged to the NSF award; 2) an appropriate system to identify,
account for, monitor, and report cost-sharing expenses; and, 3) procedures in place to prevent
unallowable indirect costs from being charged to the NSF program and to properly segregate
expenditures for multiple NSF awards. The awardee reported that is has implemented several
actions to address the findings. The awardee did not specifically explain the variances in the
cost share proposed and the cost share incurred. The awardee disagreed with the finding of
unallowable labor costs for the nine teachers who appeared to be conducting routine teaching
assignments for which the associated costs were not included in the NSF grant budget. The
awardee also disagreed that the participant support costs used to support former Detroit Public
Schools students in a Michigan State University program to tutor students in community-based
centers were not related to the USP award. DCSD did not respond as to whether or not it agreed
to formulate and implement policies and procedures to effectively administer and monitor
participant support costs.

The findings in this report should not be closed nor should additional awards be made to DCSD
until NSF has determined that all the recommendations have been adequately addressed and the
                                               4
proposed corrective actions have been satisfactorily implemented. DCSD’s response has been
included in its entirety in Appendix A.

For a complete discussion of the audit findings, refer to the accompanying Independent
Auditors’ Report on Compliance with Laws and Regulations and Internal Control over Financial
Reporting.

EXIT CONFERENCE

We conducted an exit conference on November 11, 2004, at DCSD. We discussed findings and
recommendations as well as other observations contained in this report with those attending.
Representing DCSD were:

          Name                          Title
          XXXXXXXX                      XXXXXXXXXXXXX
          XXXXXXXXXXXXXX                XXXXXXXXXXXXXX
          XXXXXXXX                      XXXXXXXXXXXXXXXXXXXXXX
          XXXXXXXX                      XXXXXXXXXXXXXXXX



Representing Cotton & Company LLP was:

                              Name               Title
                              XXXXXXX            XXXXXXXX




                                             5
FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


          INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULE


We have audited costs claimed by Detroit City School District (DCSD) to the National Science
Foundation (NSF) on the Federal Cash Transaction Reports (FCTR), for the NSF award listed
below. In addition, we audited the amount of cost sharing claimed on the award. The FCTRs, as
presented in the Schedule of Award Costs (Schedule A), are the responsibility of DCSD’s
management. Our responsibility is to express an opinion on the Schedule of Award Costs
(Schedule A) based on our audit.

            Award Number                   Award Period               Audit Period
            ESR-9908234                 09/01/99 to 8/31/04        09/01/99 to 6/30/04

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America; Government Auditing
Standards (2003 revision), issued by the Comptroller General of the United States; and the
National Science Foundation Audit Guide, September 1996, as applicable. These standards and
the National Science Foundation Audit Guide require that we plan and perform the audit to
obtain reasonable assurance that amounts claimed to NSF as presented in the Schedule of Award
Costs (Schedule A) are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and the disclosures in the Schedule of Award Costs
(Schedule A). An audit also includes assessing the accounting principles used and significant
estimates made by DCSD management, as well as evaluating overall financial schedule presenta-
tion. We believe that our audit provides a reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains the $1,422,089 (13%) of total claimed
NSF funded costs that we have questioned for allowability. These questioned costs include
unallowable salaries and fringe benefits, incorrectly calculated indirect costs, and unrelated program
costs. The Schedule of Cost Sharing (Schedule C) explains that DCSD provided $27.1 million of
cost share, $20.2 million of which resulted from the purchase of general math and science textbooks
 which were not identified in the approved NSF cost share budget.
                                                  6
Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations, or specific award conditions, (2) costs requiring
additional support by the awardee, or (3) costs that require interpretation of allowability by
NSF’s Division of Institution and Award Support (DIAS). NSF will make the final determination
of cost allowability. The ultimate outcome of this determination cannot presently be determined.
Accordingly, no adjustment has been made to costs claimed for any potential disallowance by
NSF.

In our opinion, except for $1,422,089 of questioned NSF-funded costs, the Schedule of Award
Costs (Schedule A) referred to above presents fairly, in all material respects, the costs claimed
on FCTRs for the period September 1, 1999, to June 30, 2004, in conformity with the National
Science Foundation Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF
award and on the basis of accounting policies described in the Notes to the Financial Schedules.
This schedule is not intended to be a complete presentation of financial position in conformity
with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and provisions of the National Science
Foundation Audit Guide, we have also issued a report dated November 11, 2004, on our tests of
DCSD’s compliance with certain provisions of laws, regulations, and NSF award terms and
conditions and our consideration of DCSD’s internal control over financial reporting. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

This report is intended solely for the information and use of DCSD management, NSF, DCSD’s
federal cognizant agency, the Office of Management and Budget, and the Congress of the United
States of America and is not intended to be, and should not be used by anyone other than these
specified parties.

COTTON & COMPANY LLP




XXXXXXXXXXXXXX
Partner

November 11, 2004




                                               7
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                     INDEPENDENT AUDITORS’ REPORT ON
                COMPLIANCE WITH LAWS AND REGULATIONS AND
                INTERNAL CONTROL OVER FINANCIAL REPORTING


We audited costs claimed as presented in the Schedule of Award Costs (Schedule A), which
summarizes financial reports submitted by the Detroit City School District (DCSD) to the
National Science Foundation (NSF) and claimed cost sharing for the award listed below and
have issued our report thereon dated November 11, 2004:

           Award Number                  Award Period              Audit Period
           ESR-9908234                 09/01/99 to 8/31/04      09/01/99 to 6/30/04

We conducted our audit of the Schedule of Award Costs as presented in Schedule A in
accordance with auditing standards generally accepted in the United States of America; Govern-
ment Auditing Standards (2003 revision), issued by the Comptroller General of the United
States; and the National Science Foundation Audit Guide, September 1996, as applicable. These
standards and the National Science Foundation Audit Guide require that we plan and perform the
audit to obtain reasonable assurance that the financial schedule is free of material misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable federal laws, regulations, and NSF award terms and conditions is
the responsibility of DCSD management. As part of obtaining reasonable assurance about
whether DCSD’s financial schedule is free of material misstatement, we performed tests of
DCSD’s compliance with certain provisions of applicable laws, regulations, and NSF award
terms and conditions, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. However, providing an opinion on compliance with
those provisions was not an objective of our audit and, accordingly, we do not express such an
opinion. The results of our tests of compliance disclosed instances of noncompliance that are
required to be reported under Government Auditing Standards and the National Science
                                                8
Foundation Audit Guide; see Findings 1 through 3, below.

INTERNAL CONTROL OVER FINANCIAL REPORTING

DCSD management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments made by management are required to assess
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management’s authorization and recorded properly to permit the
preparation of financial schedules in accordance with accounting principles prescribed by NSF.
Because of inherent limitations in any internal control, misstatements due to errors or fraud may
nevertheless occur and not be detected. Also, projection of any evaluation of internal controls to
future periods is subject to the risk that procedures may become inadequate because of changes
in conditions, or that the effectiveness of the design and operation of policies and procedures
may deteriorate.

In planning and performing our audit of the Schedule of Award Costs for the period September
1, 1999, to June 30, 2004, we considered DCSD’s internal control over financial reporting in
order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedule and not to provide an opinion on internal control over financial reporting.
Accordingly, we do not express such an opinion.

We noted, however, certain matters involving the internal control over financial reporting and its
operation that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. Reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal control over financial reporting that, in our judgment, could adversely affect DCSD’s
ability to record, process, summarize, and report financial data consistent with management’s
assertions in the financial schedule. Reportable conditions we found are described in Findings 1
through 3, below.

A material weaknesses is a reportable condition in which the design or operation of one or more
of the internal control elements does not reduce, to a relatively low level, the risk that
misstatements in amounts that would be material in relation to the financial schedule being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions. Our consideration of internal control over financial
reporting would not necessarily disclose all matters related to internal control over financial
reporting that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions also considered to be material weaknesses. We consider all of the
reportable conditions described below to also be material weaknesses.




                                                9
FINDINGS

Finding 1. Lack of Adequate Supporting Documentation for Salary and Fringe Benefit
Costs Resulted in Unallowable Labor Costs

DCSD lacked the required employee certifications and personnel activity reports required by
federal regulations and NSF to support all $2.8 million of total salary and fringe benefit costs it
charged to the NSF award. As such, DCSD was unable to provide support showing that labor
costs charged to its NSF awards were actually incurred and benefited its NSF program.

DCSD employees assigned to the NSF award did not prepare personnel activity reports or certify
their accuracy, nor did they maintain other supporting labor effort records such as personal
calendars. DCSD personnel indicated they were unaware that the NSF award was subject to
these time reporting requirements stipulated in OMB Circular A-87 until the USP program
manager attended an NSF conference during the spring of 2003, prompted by problems found in
other school district audits.

DCSD’s accounting system uses an “Exception Time Reporting” process. This process only
requires an employee to record his or her absences. Each employee’s salary is charged to a
funding source (grants or other cost objectives, such as administration) at the time an employee
is initially entered into the accounting system. Thus, salary and wages are charged to funding
sources based on pre-determined estimated costs and not on actual labor efforts. DCSD did not
have after-the-fact certifications to verify actual time spent on the award. Because DCSD did
not obtain employee certifications until the final year of the award, it was unable to ensure the
validity and accuracy of estimated salary and benefit costs that its accounting system had
automatically charged to the NSF award.

OMB Circular A-87, Attachment B, Section 11h, states that, to be allowable, charges to federal
awards for salaries and wages, whether treated as direct or indirect costs, must be based on
documented payroll. When employees are expected to work solely on a single federal award or
cost objective, charges for their salaries and wages must be supported by periodic (at least semi-
annually) certifications indicating that the employees worked only on that program. The
certification should be signed by the employee or supervisory official having direct knowledge
of the work performed by the employee. When employees work on multiple activities or cost
objectives, a distribution of salaries or wages must be supported by personnel activity reports
that reflect an after-the-fact distribution of actual activity of each employee; account for the total
activity for which each employee is compensated; be prepared at least monthly; and, be signed
by the employee.

Because DCSD was unable to provide employee certifications or personnel activity reports
supporting the estimated effort amounts charged to the NSF award, it was necessary for us to
interview all of the DCSD employees and supervisors charged to the NSF award to verify that
employees whose salaries were charged to the award actually performed work on the award.
While we were ultimately able to satisfy ourselves that $1,560,971 of labor effort for
administrative personnel was valid, the lack of an effective labor effort reporting process is a
                                                 10
serious control weakness. Further, we were not able to determine whether $1,249,242 of costs
for nine DCSD teachers was related to and therefore benefited the NSF award. Accordingly, we
questioned these costs.

Unallowable Labor Costs

Our interviews with nine DCSD teachers and their supervisors revealed that these teachers were
merely conducting their usual general math and science classes. As such, these routine teaching
costs should have been charged to DCSD’s general education expenses as opposed to NSF’s
award. Instead, DCSD charged the entire cost of these teachers’ salaries and fringe benefits to
the NSF grant. Moreover, these costs were not mentioned in either the grant proposal or the
program budget, and were not previously approved by NSF as an award expense.

DCDS representatives referred us to a section of its NSF program budget as support for these
costs. However, the referenced program budget section does not refer to teachers teaching
general math and science classes. Instead, the referenced program budget section refers to “core
curriculum implementation of standards based curriculum innovations” and states that “teachers
will be provided opportunities to develop skills in core curriculum implementation that are
research based and include … Connected Mathematics, Exit Skills, materials development and
attendant professional development, CEPUB, PASCAL, Probes, Core Plus, Bio/Com.”

Further, DCSD representatives explained that these teachers were used as “model teachers”
because other District teachers were allowed to observe them in their classroom. However,
“model teachers” were not included in DSCD’s project proposal or in its program budget.
Model teachers, according to DCSD, were demonstrating how to implement the standards-based
curriculum as part of the USP strategy. The co-principal investigator added that the model
teachers assisted in implementing innovative strategies, could visit other teacher classrooms,
provide professional development, and could implement project-based science. According to
DCSD, the benefit of model teaching was to assess implementation of the total initiative in the
District and to understand the impact of various programs to determine if large districts could
scale-up mathematics and technology integration in their curriculum.              Despite these
explanations, the employee interviews revealed that the nine teachers were conducting their
usual general math and science courses rather than activities related to accomplishing the goals
of the NSF award.

OMB Circular A-87, Subpart C, identifies factors affecting allowability of costs. To be
allowable under federal awards, costs must meet the criteria for allocable costs. A cost is
allocable to a particular cost objective if the goods or services involved are chargeable or
assignable to such cost objective in accordance with relative benefits received. Because the
$1,249,242 of labor costs for nine of DCSD’s teachers was not included in the NSF grant budget,
and because it appeared these teachers were conducting routine teaching assignments, we
questioned these costs as unallowable to the NSF award.

Recommendation 1: We recommend that the NSF Directors for the Division of Institution and
Award Support (DIAS) and the Division of Grants and Agreements (DGA) direct DCSD to
                                              11
continue to ensure that employees maintain semi-annual certifications and monthly personnel
activity reports to support salaries and wages charged to NSF awards, as required by OMB
Circular A-87, Attachment B, Section 11h.

DCSD Comments: DCSD stated they will ensure that employees maintain semi-annual
certifications and monthly personnel activity reports to support salaries and wages charged to
NSF awards. DCSD also stated it does not consider any of its curricula as “regular mathematics
and science” and that the cost for the teachers was consistent with the award.

Auditors’ Additional Comments: DCSD’s corrective actions, as described in its comments
appear to be responsive to our recommendation except that they did not address why the labor
costs for the nine teachers were not included in the NSF budget. Accordingly, we continue to
question these costs. This report finding should not be closed until this recommendation has
been adequately addressed and NSF determines that the corrective actions have been
satisfactorily implemented.

Finding 2. Lack of an Efficient System to Identify, Account for, Monitor and Report Cost
Sharing and Claiming General Math and Science Textbooks as Cost Share

Lack of an Efficient System to Identify, Account for, Monitor, and Report Cost Share

DCSD lacked an efficient system to properly identify, account for, monitor and report cost
sharing it attributed to the NSF award, raising questions as to the reliability and integrity of the
$27,094,087 that DCSD claimed on its certified cost sharing reports submitted to NSF.

NSF’s Grant Policy Manual (GPM) Section 333.6, Cost Sharing Records and Reports, and
OMB Circular A-110, Subpart C, Section 23, require grantees to maintain records of all costs
claimed as cost sharing, and states that those records are subject to audit. These regulations also
state that cost-sharing expenses must be verifiable from the recipient’s records and must not be
included as contributions to any other federal award or funded by any other federal award. OMB
Circular A-110 Section .23, also states that, to be accepted as part of the recipient's cost sharing,
expenditures must be necessary and reasonable for proper and efficient accomplishment of
project or program objectives and allowable under applicable cost principles.

While DCSD’s accounting system did capture all cost sharing expenses, it did not separately
identify and track those expenses incurred on behalf of the NSF award as opposed to other
federal awards. Instead, DCSD used an alternative manual system consisting of a collection of
receipts, invoices, and other hard copy documents to identify and account for cost sharing
specific to the NSF award. However, DCSD did not reconcile these manual records to its
accounting records on a regular basis. As such, DCSD was unable to know the status of its cost
share contributions in comparison to its commitment. Also, without this reconciliation DCSD
could not ensure that these contributions were not also used on other federal awards or that the
funds for certain cost-share amounts did not come from other federal sources.



                                                 12
DCSD utilized a Grant Compliance Officer to prepare its cost sharing certifications based on the
manual system. These cost share certifications based on the manual records were also reviewed
by the co-principal investigator, who forwarded them to the Chief Financial Officer (CFO). The
CFO then required accounting system transaction detail reports to support the cost-share
certifications. However, the reconciliation of accounting system detail to the manual system
records used to prepare the cost share certifications was not performed until after the CFO
submitted the cost share reports to NSF. Thus, because the cost share expenditures in DCSD’s
accounting system were not identified as NSF grant-related expenditures at the time of
occurrence, and because the reconciliation of the manual system to the accounting system did
not occur in a timely manner, DCSD could not be sure that the same costs were not also claimed
on other federal awards.

Additionally, DCSD did not have written procedures for documenting and reporting its cost-
sharing requirements. Instead, DCSD relied on NSF’s “Cost Share Frequently Asked Questions”
to provide written cost-sharing procedures rather than prepare its own written policies of how to
account for, document, and report its cost share for NSF awards.

The lack of a timely reconciliation between the manual records and the accounting system
records, coupled with the lack of written cost share procedures raises concerns as to the
reliability and accuracy of the cost share amounts DCSD claimed to NSF. It also raises concerns
as to whether or not DCSD double-counted its cost share and claimed those same amounts as
cost share on other federal programs.

General Math and Science Textbooks Claimed as NSF Program Cost Share

DCSD claimed $20.2 million of its general math and science textbook expenses (75% of total
cost share) as cost share under its NSF award. This type of cost share expense was not included
in the budget DCSD submitted to and approved by NSF for this award. Also, the NSF program
announcement specifically indicated that “the use of school buildings, equipment, and materials
during normal hours of operation is not considered cost sharing.”

NSF’s USP Program Announcement 99-52 stated that awardees should adhere to their cost-share
budgets as proposed and that the proposed cost-sharing budget would be considered in
evaluating the proposal. The announcement also stated that the amount of cost sharing proposed
by the grantee would become a condition of the award and that “the use of school buildings,
equipment, and materials during normal hours of operation is not considered cost sharing.”

However, the types of costs that DCSD claimed as cost share varied significantly from the NSF
approved cost share budget and the program announcement. For example, $24,975,833, (92
percent), of the cost share claimed by DCSD consisted of materials and supplies, even though the
original budget DCSD proposed and NSF approved for this award showed only $3,005,000 (14
percent) for materials and supplies. Additionally, the approved budget for this award did not
specify any costs for textbooks, but DCSD claimed $20.2 million of general math and science
textbooks as cost share, materials that were precluded in the NSF program announcement.


                                               13
DCSD indicated to us that it interpreted its grant as a core curriculum development and
improvement grant for math, science, and technology. Consequently, it considered any type of
non-federal funding that related to its general math, science, and technology programs as cost
share for its NSF grant. On this basis, DCSD claimed $20.2 million in cost share for general
math and science textbooks. By taking such a broad interpretation, DCSD was able to claim
$6.1 million (29%) more cost share than was required under the award. However, this additional
cost share was accomplished through the purchase of general math and science textbooks,
materials that do not appear to have benefited the NSF award, rather than through the purchase
of items approved by NSF for this program. Nevertheless, we did not question the general math
and science textbook cost share because NSF program officers indicated to us they would accept
the textbooks as cost share if they were used to teach students math and science.

Cost categories for budgeted and claimed cost sharing and their respective percentages of total
cost sharing are as follows:

                                 Budgeted          % of     Claimed Expenses        % of
  Cost Category                  Amounts           Total        1999-2004           Total
  Salaries and Wages             XXXXXX             XX           $1,275,066          XX
  Fringe Benefits                XXXXXX             XX              123,243         XXX
  Permanent Equipment            XXXXXX             XX                   47         XXX
  Travel                                                              1,601         XXX
  Participant Support Costs:
     Stipends                    XXXXXX             XX              285,380          XX
     Travel                                                         123,624         XXX
     Other                       XXXXXX             XX                    0          XX
  Other Direct Costs:
     Materials and Supplies      XXXXXX             XX           24,975,833          XX
     Publication Costs                                                  332         XXX
     Consultant Services                                            187,854         XXX
     Computer Technology         XXXXXX             XX                    0          XX
     Other                       ________                           121,107         XXX
  Total Direct Costs           $20,726,192                     $27,094,087
  Indirect Costs                   253,430          XX                   0            XX
  Total                        $20,979,622                     $27,094,087


  Exceeded Amount                                                $6,114,465            29




Recommendation 2:
                                              14
a.     We recommend that the NSF Directors of DIAS and DGA direct DCSD to establish a
       system to identify, account for, monitor, and report cost-sharing expenses and, at a
       minimum, ensure that:

       •      Cost sharing for NSF awards is separately tracked, accounted for, and verifiable
              in DCSD’s accounting records; is not included as a contribution for any other
              federally-assisted project or program; is necessary and reasonable for proper and
              efficient accomplishment of project and program objectives; is allowable under
              applicable cost principles; and, is not paid by the federal government under
              another award.

       •      All NSF awards with cost-sharing requirements are immediately identified and
              reported to the Accounting Department so that cost sharing expenditures can be
              tracked, associated with the NSF award, and reported as they are incurred.

       •      Costs-sharing costs incurred and claimed on NSF awards are appropriately
              designated as such as they occur to establish that they are reasonable, allocable,
              and allowable to NSF awards.

       •      Cost-sharing policies and procedures are developed and documented, are
              consistent with NSF requirements, and are communicated to appropriate DCSD
              staff.

b.     We recommend that the NSF require DCSD to explain the variances in the cost share
       proposed and the cost share incurred and verify that the amount of cost share incurred
       actually benefited the NSF program.

DCSD Comments: DCSD stated that it will establish a system to identify, account for, monitor,
and report cost-sharing expenses through a designated program code. DCSD also stated it
converged its resources to ensure that the cost share materials benefited the NSF program.

Auditors’ Additional Comments: DCSD’s corrective actions, as described in its comments,
appear responsive to our recommendation, except that they did not explain the variances in the
amounts of cost share proposed and those incurred to verify that the amount of cost share
incurred actually benefited the NSF program. The system established should ensure that written
policies and procedures are in place and are effective to demonstrate that DCSD has actually
provided cost sharing in the amounts claimed which benefited the NSF award as opposed to
other federal awards. This report finding should not be closed until this recommendation has
been adequately addressed and NSF determines that the corrective action has been satisfactorily
implemented.



Finding 3. Lack of an Effective Financial Management System and Internal Control
                                              15
Process for Participant Support, for Indirect Costs, and for Segregation of Expenditures
for Multiple NSF Awards

DCSD did not have adequate financial management systems and internal control processes to
properly administer its NSF award in the areas of participant support and indirect costs. It also
did not maintain proper segregation of expenditures for its multiple NSF Awards.

As stated in NSF’s GPM Section 301, DCSD is responsible for prudent management of all
expenditures and actions affecting the grant. GPM Section 301 also states that documentation for
each expenditure or action affecting the award must reflect appropriate organizational reviews or
approvals, which should be made in advance of the action. Moreover, GPM Section 410 states
that NSF grantees are required to have financial management systems that meet requirements of
Section 21 of OMB Circular A-110. That circular requires awardee financial management
systems to provide:

       •       Accurate, current, and complete disclosure of the financial results of each award.

       •       Records that adequately identify the source and application of funds.

       •       Effective control over accountability for all funds, assuring that all funds are used
               solely for authorized purpose.

       •       Comparison of outlays with budget amounts for each in accordance with
               provisions of applicable federal and award requirements.

       •       Accounting records, including cost accounting records, supported by source
               documentation.

Participant Support Costs

DCSD did not have an adequate system to track, document, and monitor the use of participant
support funds to ensure the allowability of the participant support expenditures that it charged to
its NSF grant. DCSD did not separately identify participant support costs in its accounting
system. Instead, the expenditure categories of “participant support costs-other,” “subcontract,”
and “other costs” were all recorded under a single account code entitled “6838 other purchased
services.” To support $5.2 million (47%) of claimed participant support costs, DCSD
representatives had to manually review invoices during the audit, identify those costs that were
for participant support activities, and manually prepare a summary schedule of participant
support costs.

DCSD’s failure to separately record and account for participant support costs at the time such
costs were incurred, made it difficult for DCSD to monitor participant support expenditures for
allowability. Additionally, we found that DCSD used $10,000 of participant support funds to
pay stipends for university undergraduate students participating in internships at Detroit
community centers, costs not in the approved NSF budget or related to the USP award. The
                                                16
inefficiencies and lack of timeliness in the recordation of participant support costs in DCSD’s
accounting records resulted in DCSD spending $10,000 of funds designated for participant
support on costs which were not participant support. Therefore we questioned the $10,000.

Indirect Costs

DCSD did not have adequate policies and procedures for determining allowable indirect costs
for NSF award No. ESR-9908234. The award provided for a predetermined, fixed 2.29-percent
indirect cost rate. This rate should have been applied to total direct costs less subaward costs
and participant support costs. Two unexplained charges totaling $25,466 were recorded as
indirect costs in the books of account during the first two years of the award. Rather than
calculate its indirect costs utilizing its official accounting records, DCSD instead claimed as
indirect costs the difference between its expenditures as of June 30, 2003, and the award’s
authorized funding amount.

According to DCSD representatives, its accounting personnel prepared an estimate of indirect
costs on its June 30, 2003, FCTR. The use of a plug amount was to allow DCSD to claim the
total of the award’s authorized funding level available at the time the FCTR was submitted to
NSF. Thus, estimated amounts were used to claim indirect costs rather than actual accounting
records.

DCSD accounting personnel did not follow special award provisions or NSF regulations when it
charged indirect costs to its NSF award. Indeed, DCSD should have provided NSF award terms
for indirect cost calculations to the staff assigned to calculate such costs for its NSF award.
Although DCSD utilized plug numbers to report its indirect costs on its NSF grant, we
nonetheless identified $15,206 in underclaimed indirect costs in its accounting records.
Therefore we are not questioning indirect costs but nevertheless believe DCSD has weaknesses
in its indirect cost accounting processes that need to be corrected. Further explanation of how
the underclaimed amount was calculated is provided in Schedule B, Note 4.

Lack of Segregation of Expenditures for Multiple NSF Awards

DCSD claimed $178,053 of unrelated program costs to Cooperative Agreement ESR-9908234
during fiscal year 2000. These costs were related to NSF Cooperative Agreement No. ESR-
9453665 but were erroneously charged to Cooperative Agreement ESR-9908234 due to an
inadequate grant numbering system. Although the time period of Cooperative Agreement No.
ESR-9453665 overlapped with Cooperative Agreement No. ESR-9908234 for 5 months, DCSD
did not establish a new grant number in its accounting system to distinctly track expenditures
incurred for its two NSF awards.

According to DCSD representatives, DCSD inadvertently processed charges to ESR-9908234
(USP) which had not been claimed under ESR-9453665 (USI award). In the spring of 1999,
DCSD posted in its accounting system a preliminary budget for Cooperative Agreement ESR-
9908234 (USP) to begin on July 1, 1999. Thus, USI program activities which occurred during
the USI/USP overlap period of September 1999 to February 2000 were inadvertently posted to
                                              17
the USP program. Erroneous USI charges posted to the USP award included $178,053 of costs
that should have been charged to NSF Award No. ESR-9453665 for subcontracts, materials and
supplies, participant support and travel. We questioned the $178,053 of overcharged costs.

Recommendation 3: We recommend that the NSF Directors of DACS and DGA require DCSD
to develop and implement written policies and procedures that:

       a.      Provide a financial management system and control processes that effectively
               administer and monitor participant support costs, indirect costs, and allocation of
               expenditures for each NSF award.

       b.      Require supervisory reviews and approvals of expenditures and other actions
               under NSF awards as costs are incurred.

       c.      Ensure reasonableness, allocability, and allowability of all costs claimed in
               accordance with NSF and federal requirements as costs are incurred.

       d.      Ensure that DCSD personnel are adequately trained and understand how to
               comply with federal and NSF award requirements.

DCSD Comments: DCSD concurs with this finding and stated it will not again engage in the
practice of using funds to support former DCSD students in the Michigan State program to tutor
students in community-based centers. Beginning in fiscal year 2005, DCSD has created a
restricted line item for indirect costs as one of the control measures to prevent unallowable costs
from being charged. Additionally, DCSD stated that all purchase requests using Federal funds
are reviewed for allowability prior to becoming a purchase order or contract. The District’s
Grant Compliance Office publishes a weekly newsletter that communicates grant requirements
as well as District policies and procedures on an on-going basis.

Auditors’ Additional Comments: DCSD’s corrective actions, as described in its comments,
appear to respond to our recommendations except DCSD did not respond to whether it agreed to
formulate and implement policies and procedures that effectively administer and monitor
participant support costs. This report finding should not be closed until NSF determines that the
corrective action has been satisfactorily implemented.

We considered these instances of noncompliance and internal control weaknesses in forming our
opinion on whether the Schedule of Award Costs (Schedule A) presents fairly, in all material
respects, costs claimed by DCSD on the FCTR and cost sharing claimed for the period
September 1, 1999, to June 30, 2004, in conformity with federal and NSF award terms and
conditions, and determined that this report does not affect our report dated November 11, 2004,
on the financial schedule.



This report is intended solely for the information and use of DCSD management, NSF, the
                                                18
cognizant federal audit agency, OMB, and the Congress of the United States and is not intended
to be and should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP




XXXXXXXXXXXXXX
Partner

November 11, 2004




                                              19
FINANCIAL SCHEDULES
 AND SUPPLEMENTAL
    INFORMATION
                                                                                                 SCHEDULE A

                              DETROIT CITY SCHOOL DISTRICT
                                   DETROIT, MICHIGAN

              NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9908234
                          SCHEDULE OF AWARD COSTS
                       SEPTEMBER 1, 1999, TO JUNE 30, 2004
                                  INTERIM

                                       Approved                                  Questioned              Schedule
Cost Category                           Budget             Claimed Costs           Costs                 Reference
Salaries and Wages                     XXXXXX                XXXXXX               XXXXXX                 B, Note 1
Fringe Benefits                         XXXXX                 XXXXX                XXXXX                 B, Note 1
Travel                                  XXXXX                  XXXX                  XXX                 B, Note 2
Participant Support:
   Stipends                            XXXXXX                XXXXXX                   XXXX              B, Note 2
   Other                               XXXXXX                XXXXXX                   XXXX             B, Notes 2-3
Other Direct Costs:
   Materials and Supplies                XXXXX                XXXXX                   XXXX               B, Note 2
   Publications                          XXXXX                 XXXX
Subcontracts:
   Wayne State University              XXXXXX                XXXXXX                 XXXXX                B, Note 2
   University of Michigan              XXXXXX                XXXXXX                ________
Total Direct Costs                   $11,290,489           $10,880,757           $1,437,295
Indirect Costs                           209,511                25,466              (15,206)             B, Note 4
Total Costs                          $11,500,000           $10,906,223*          $1,422,089

Cost Sharing                         $20,979,622           $27,094,087                       0

*      Total claimed costs agree with total expenditures reported on the FCTR for the quarter ended June 30,
       2004. Claimed costs are based on the Summary of Claimed Costs prepared by DCSD from its books of
       accounts.




                                                      20
                                                                               SCHEDULE B

                         DETROIT CITY SCHOOL DISTRICT
                              DETROIT, MICHIGAN

         NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9908234
                  SCHEDULE OF QUESTIONED COSTS
                  SEPTEMBER 1, 1999, TO JUNE 30, 2004


1.   Salaries and Fringe Benefits

     DCSD claimed 100 percent (XXXXXX) of salary and related fringe benefit costs for nine
     teachers that served as “model teachers” in the USP. These employees worked full-time
     as classroom teachers, but served as models for other teachers to observe in the
     classroom. DCSD allocated none of the salary and fringe benefit costs for these teachers
     to the general education expense of teaching students.

     OMB Circular A-87, Attachment A, Subsection C.3, states that a cost is allocable to a
     particular cost objective if the goods or services involved are chargeable or assignable to
     such cost objective in accordance with relative benefits received. DCSD had not
     allocated these costs in accordance with relative benefits received.

     We also noted that these “model teachers” were not mentioned in the grant budget.
     DCSD’s annual reports submitted to NSF make reference to “modeling” in the context of
     professional development. DCSD identified two budget line items, Core Curriculum
     Implementation (under participant support costs) and Teacher Release Substitute Service
     (under salaries and wages), as support that model teacher costs were included in the grant
     budget. The budget description for these activities does not match activities performed
     by these model teachers.

     Accordingly, we questioned these costs.

     DCSD Comments: DCSD stated that it agreed it did not have employee certifications
     supporting amounts charged to the NSF award but believes that the “model teachers” did
     benefit the NSF award.

2.   Erroneous Charges

     DCSD charged $178,053 to this award that it should have charged to Cooperative
     Agreement No. ESR-9453665, as follows:




                                               21
                         Item                             Amount
                         Travel                             XXXX
                         Participant Support
                            Stipend                        XXXX
                            Other                          XXXX
                         Materials and Supplies            XXXX
                         Subcontracts                     XXXXX
                         Total Costs                      $178,053

     OMB Circular A-87, Attachment A, Subsection C.3, states that a cost is allocable to a
     particular cost objective if the goods or services involved are chargeable or assignable to
     such cost objective in accordance with relative benefits received.

     We questioned these costs.

3.   Participant Support, Other

     DCSD claimed $10,000 contributed to Michigan State University’s Detroit Spartan
     Program. The program provides stipends to undergraduate students participating in
     internships at Detroit Community Centers. The students provide tutoring, computer
     training, field trips, and mentoring of high school student assistants to inspire students to
     continue in school and enter college. DCSD representatives were unable to explain how
     the contribution benefited USP.

     OMB Circular A-87, Attachment B, Section 13, states that contributions and donations,
     including cash, property, and services, by governmental units to others, regardless of the
     recipient, are unallowable. In addition, OMB Circular A-87, Attachment A, Subsection
     C.3, states that a cost is allocable to a particular cost objective if the goods or services
     involved are chargeable or assignable to such cost objective in accordance with relative
     benefits received.

     We questioned these costs.

     DCSD Comments: DCSD stated that it disagrees that the costs for the Detroit Public
     Schools undergraduate students participating in internships were not related to the USP
     award.




4.   Indirect Costs
                                              22
DCSD did not claim indirect costs in accordance with award terms. Section III, B11, of
the award states that indirect costs will be based on a fixed 2.29-percent indirect rate
applied to direct costs, less capital items, participant support costs, and subawards.
DCSD claimed $25,466, resulting in an under claim, as follows:

       Total direct costs                                  $10,880,757
        Less: Questioned Costs                               1,437,295
        Less: Subawards not questioned
              ($2,640,444-$130,673)                          2,509,771
        Less: Participant support costs not
              questioned ($5,188,660-$31,051)                5,157,609
       Indirect cost base per audit                         $1,776,082
       Fixed indirect cost rate                                   2.29%
       Indirect costs per audit                                $40,672
       Less: Claimed indirect costs                             25,466
       Underclaimed indirect costs                             $15,206




                                       23
                                                           SCHEDULE C


                      DETROIT CITY SCHOOL DISTRICT
                           DETROIT, MICHIGAN

        NATIONAL SCIENCE FOUNDATION AWARD NO. ESR-9908234
                    SCHEDULE OF COST SHARING
                 SEPTEMBER 1, 1999 TO JUNE 30, 2004
                            INTERIM



Cost Category                 Budgeted Amounts   Claimed Expense
Salaries and Wages                XXXXXX            XXXXXX
Fringe Benefits                   XXXXXX             XXXXX
Permanent Equipment               XXXXXX                XX
Travel                                                XXXX
Participant Support Costs:
   Stipends                       XXXXXX             XXXXX
   Travel                                            XXXXX
   Other                          XXXXXX
Other Direct Costs:
   Materials and Supplies         XXXXXX            XXXXXX
   Publication Costs                                  XXXX
   Consultant Services                               XXXXX
   Computer Technology            XXXXXX
   Other                          ________           XXXXX
Total Direct Costs              $20,726,192       $27,094,087
Indirect Costs                      253,430       __________
Total                           $20,979,622       $27,094,087




                                 24
                                                                               SCHEDULE D

                 DETROIT CITY SCHOOL DISTRICT
      SUMMARY SCHEDULE OF AWARD AUDITED AND AUDIT RESULTS
                SEPTEMBER 1, 1999, TO JUNE 30, 2004

  Summary of Award Audited

    Award Number                      Award Period                 Audit Period
    ESR-9908234                      09/01/99-08/31/04           09/01/99-06/30/04


                       Type of Award                Award Description
                   Cooperative Agreement          Urban Systemic Program

  Summary of Questioned and Unresolved Costs by Award

                    Award          Claimed        Questioned    Unresolved      Unsupported
Award Number        Budget          Costs           Costs         Costs            Costs
ESR-9908234       $11,500,000     $10,906,223     $1,422,089          0              0

  Summary of Questioned Cost by Explanation

                                    Questioned         Internal           Noncompliance
     Category                         Costs         Control Finding          Finding
     Salary and Fringe Benefits      XXXXXX               Yes                 Yes
     Travel                              XXX              Yes                 Yes
     Participant Support                XXXX              Yes                 Yes
     Materials & Supplies               XXXX              Yes                 Yes
     Subcontracts                     XXXXX               Yes                 Yes
     Negative Questioned               (15,206)           Yes                 Yes
      Indirect Costs
     Total Questioned Cost          $1,422,089




  Summary of Noncompliance and Internal Control Findings
                                             25
                              Noncompliance or
Findings                      Internal Control?   Material or Reportable?
Salary and Fringe Benefits          Both                 Material
Cost Sharing                        Both                 Material
Financial Management System         Both                 Material




                   DETROIT CITY SCHOOL DISTRICT
                                   26
                            NOTES TO FINANCIAL SCHEDULES
                           SEPTEMBER 1, 1999, TO JUNE 30, 2004


1.     SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Accounting Basis

The accompanying financial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to
NSF. The basis of accounting utilized in preparation of these reports differs from generally
accepted accounting principles. The following information summarizes these differences:

       A.      Equity

       Under award terms, all funds not expended according to the award agreement and budget
       at the end of the award period are to be returned to NSF. Therefore, an awardee does not
       maintain any equity in the award, and any excess of cash received from NSF over final
       expenditures is due back to NSF.

       B.      Equipment

       No equipment was purchased under the NSF award.

       C.      Inventory

       Minor materials and supplies are charged to expense during the period of purchase. As a
       result, no inventory is recognized for these items in the financial schedule.

2.     INCOME TAXES

DCSD is a local governmental entity and is exempt from income taxes under the Internal
Revenue Code.

3.     NSF COST SHARING AND MATCHING

As set forth in the grant award, the approved cost sharing was as follows:

                                    National Science            Total Project
              Cost Sharing            Foundation                  Budget
              $20,979,621              $11,500,000               $32,479,621
4.     INDIRECT COST RATES

                                                27
•   Type of rate authorized for award: Predetermined fixed rate of 2.29 percent.

•   Period of rate: September 1, 1999, to June 30, 2004.

•   Indirect cost rate used to claim cost: Based on total direct costs less capital items,
    subawards, and participant support costs.




                                      28
         APPENDIX A


AWARDEE’S COMMENTS TO REPORT
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
          www.oig.nsf.gov

           Email Hotline
            oig@nsf.gov

            Telephone
           703-292-9158

    Toll-Free Anonymous Hotline
           1-800-428-2189

               Fax
           703-292-9159

                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
